HHS/OIG, Audit - "Review of Escessive Payments for Outpatient
Services Processed by Chisholm Administrative Services in 2005," (A-06-07-00058)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Excessive Payments for Outpatient
Services Processed by Chisholm Administrative Services in 2005," (A-06-07-00058)
August 15, 2007
Complete
Text of Report is available in PDF format (274 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objective was to determine whether the high-dollar Medicare payment that
Chisholm Administrative Services (Chisholm) made to a provider for an outpatient service was appropriate.  The
high-dollar Medicare outpatient payment was not appropriate.  For calendar year
2005, Chisholm made one payment of $50,000 or more for outpatient services.  Our
analysis indicated that, at the start of our fieldwork in February 2007, the
payment was incorrect, and the provider had not refunded the $57,700
overpayment.  We notified the provider and requested that the claim be reviewed.
After reviewing the claim, the provider submitted an adjusted claim and refunded
the overpayment.  The Chisholm medical review team reviewed and approved
the revised amount.  We recommended that Chisholm review the providers payment
history for claims under $50,000 that bill code C9205 and correct any claims
found in error and use the results of this audit in its provider education
activities.  Chisholm agreed with our recommendations.